No. 20-5363

In the Supreme Court of the United States
REGINALD JONES,
v.

Petitioner

STATE OF LOUISIANA,
Respondent

ON PETITION FOR A WRIT OF CERTIORARI
TO THE LOUISIANA COURT OF APPEAL, FOURTH CIRCUIT

RESPONDENT’S APPENDIX A

10/06/2020 "See News Release 037 for any Concurrences and/or Dissents."

SUPREME COURT OF LOUISIANA
No. 2019-K-0533
STATE OF LOUISIANA
VERSUS
REGINALD JONES

On Writ of Certiorari to the Court of Appeal, Fourth Circuit,
Parish of Orleans

WEIMER, J., concurs in the result.
Given the procedural posture of this case, I respectfully concur in the denial of
rehearing in this matter.
Defendant’s writ application was unanimously denied by this court on March
16, 2020. State v. Jones, 19-0533 (La. 3/16/20). In that application, which pre-dated
the U.S. Supreme Court decision in Ramos v. Louisiana, 140 S.Ct. 1390 (2020), no
mention (much less complaint) was made as regards the non-unanimous jury verdict
on two of defendant’s three convictions. That issue was raised for the first time in an
application for rehearing filed by defendant on June 18, 2020.
This court’s ability to address the Ramos issue, raised for the first time on
rehearing, is foreclosed by both the rules of this court and of the Code of Criminal
Procedure. La. S.Ct. Rule IX, § 6 provides that “[a]n application for rehearing will
not be considered when the court has merely granted or denied an application for a
writ of certiorari or a remedial or other supervisory writ ....” Likewise, La. C.Cr.P.
art. 922(D) provides that “[i]f an application for a writ of review is timely filed with
the supreme court, the judgment of the appellate court from which the writ of review
is sought becomes final when the supreme court denies the writ.” Pursuant to these

rules, this matter is now final, and not properly reviewable by application for
rehearing.1
The U.S. Supreme Court granted certiorari to consider whether Ramos applies
retroactively to cases on federal collateral review. Edwards v. Vannoy, 206 L.Ed.2d
917 (5/4/2020). Furthermore, I have repeatedly and consistently voted to grant writs
and to order briefing and argument to consider the retroactivity of Ramos to cases on
collateral review under state law. However, because defendant’s case has been final
on direct review since March 16, 2020, defendant’s Ramos claims are not properly
before this court at this time.

1

However, that finality does not leave the defendant without an avenue for potential review. He
still has available post-conviction proceedings.
2

